        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Progress in Implementing the
Department of Energy's
Weatherization Assistance Program
Under the American Recovery and
Reinvestment Act




OAS-RA-10-04                          February 2010
                                 Department of Energy
                                   Washington, DC 20585

                                       February 19, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                INFORMATION: Special Report on "Progress in Implementing the
                        Department of Energy's Weatherization Assistance Program Under the
                        American Recovery and Reinvestment Act

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted to stimulate
the U.S. economy, create jobs and make infrastructure investments in energy and other areas.
The Department of Energy's (Department) Weatherization Assistance Program received about
$5 billion under the Recovery Act to improve the energy efficiency of nearly 590,000 residences
of low income citizens -- a dramatic increase over the $450 million appropriated for this Program
in Fiscal Year 2009. The Department awarded $4.73 billion of the Recovery Act funding in the
form of grants to all 50 states, 5 territories, the District of Columbia and 2 Native American
Tribes (the remaining $270 million was retained by the Department to administer the grants). It
was anticipated that the expenditure of these funds would result in the almost immediate creation
of jobs because they were to rely on the existing Weatherization Program infrastructure,
recognizing that many homes of low income citizens were in need of energy usage
improvements. As of December 2009, grantees had been authorized to spend up to 50 percent of
awarded funds, with additional monies to be provided based on performance. Corresponding to
funding increases, weatherization production goals increased significantly, rising from 104,000
in 2009 to 586,015 units over the 3 year life of the Recovery Act.

As noted in our Special Report on the American Recovery and Reinvestment Act at the
Department of Energy (OAS-RA-09-01, March 2009), the Department of Energy's grant-making
authority, an essential component of the Weatherization Program’s strategy, was critical to
achieving the desired Recovery Act-related economic stimulus. In that report, we suggested that
the Department take steps to develop aggressive safeguards to ensure that performance was
monitored throughout the life-cycle of the grants. Because of the importance of this program to
stimulating the economy, creating jobs, and improving the quality of life in low income
households, we initiated this review to provide the Department with an interim status report
highlighting factors impacting progress in meeting Weatherization Assistance Program and
Recovery Act goals.

OBSERVATIONS AND CONCLUSIONS

The Department had taken a number of proactive steps to foster timely implementation of the
Weatherization Program. However, in spite of the Department's efforts, grantees had made little
progress in weatherizing homes. As of February 2010, the one-year anniversary of the Recovery
Act, only a small percentage of Recovery Act weatherization funds had been spent and few
homes had actually been weatherized:

         Only $368.2 million (less than 8 percent) of the total award of $4.73 billion had been
         drawn by grantees for weatherization work (please see Appendix I); and,

         Corresponding to the low spending rates, grant recipients fell significantly short of goals
         to weatherize homes. Notably, as shown in the following chart, only 2 of the 10 highest
         funded recipients completed more than 2 percent of planned units. If the State of Ohio,
         one of the most productive jurisdictions, is taken out of the mix for comparative purposes,
         the completion rate for the remaining nine states was well under two percent.
                                                             Units Weatherized as of          Percentage of
          State                   Units Planned                  December 2009               Units Completed
New York                                45,400                             280                          0.62%
Texas                                   33,908                               0                          0.00%
Ohio                                    32,180                            6,814                        21.17%
Pennsylvania                            29,554                             378                          1.28%
Michigan                                33,410                             385                          1.15%
Illinois                                26,933                             331                          1.23%
California                              43,400                              12                          0.03%
Florida                                 19,090                             312                          1.63%
Wisconsin                               20,678                             772                          3.73%
North Carolina                          22,203                             197                          0.89%

Source: Department's National Weatherization ARRA Snapshot Report dated February 16, 2010.

Appendix II to this report provides Weatherization Program data for all 58 recipients. As noted
in the Appendix, 13 of these recipients, including a number of large states, had not weatherized
any residences as of February 16, 2010. This finding was based on data provided by the
Department as of February 16, 2010.

Because the consequences of the lack of progress by grantees in the implementation of the
Weatherization Program were so significant, we found this data alarming. In short, the Nation
has not, to date, realized the potential economic benefits of the $5 billion in Recovery Act funds
allocated to the Weatherization Program. The job creation impact of what was considered to be
one of the Department's most "shovel ready" projects has not materialized. And, modest income
home residents have not enjoyed the significant reductions in energy consumption and improved
living conditions promised as part of the massive Recovery Act weatherization effort.

To its credit, the Department, through site visits to 32 states and numerous interactions with state
officials, identified challenges facing the grantees that delayed weatherization progress.
Department officials worked aggressively with the states and other responsible agencies to
mitigate these challenges. Further, we were informed that most grantees were able to weatherize
some residences during Fiscal Year 2009 using funds awarded prior to the enactment of the
Recovery Act. However, as a practical matter, program challenges, such as those identified in
this report, placed the Recovery Act-funded Weatherization Program "on hold" for up to nine
months. Despite its best efforts, the Department's actions to reduce or eliminate program delays
appeared not to have significantly increased the tempo of actual units weatherized across the
Nation.
                                                   2
                                    Regulatory Requirement

The Recovery Act required that recipients of weatherization funds pay laborers at least the
prevailing wage as determined under the Davis-Bacon Act. This requirement was not previously
applicable to weatherization activities, and as such, grantees lacked information on which to base
wage rates. In response, the Department asked the Department of Labor (Labor) to provide
necessary wage determinations for each of the geographical areas expected to receive
weatherization funds. Labor then began to conduct wage surveys across the country to determine
the appropriate wage for weatherization work.

Recognizing that delays would occur while the wage surveys were completed, Federal officials
attempted to mitigate the effects of implementing the Davis-Bacon Act. The Secretaries of
Energy and Labor issued a joint memorandum in July 2009 to grantees stating that state and local
agencies should begin weatherizing homes "now" while they were waiting for the results of the
surveys. The guidance recommended proceeding with weatherization efforts and adjusting
salaries retroactively, if workers had been paid less than the appropriate wage rates. In many
cases, however, states elected not to proceed with weatherization efforts as recommended. They
were concerned with avoiding perceived administrative problems and burdens associated with
retroactive adjustments to wages. Many grantees chose not to begin work until the prevailing
wage rates were formally established. Even after Labor's work was complete, additional delays
occurred while grantees prepared guidance for sub-recipients on how to apply the wage rates. As
such, efforts to begin the work of weatherizing homes did not begin in earnest until after
guidance was completed in October 2009.

                                       State-Level Issues

A number of other factors at the state level also contributed to delays in developing and
implementing plans for the Weatherization Program. Among other things, certain states were
unable to prepare their required program plan and submit it to the Department for review and
approval in a timely manner. Ironically, given the anticipated stimulus effect of the program,
economic problems in many states adversely impacted their ability to ensure that weatherization
activities were performed. State hiring freezes, problems with resolving significant local budget
shortfalls, and state-wide planned furloughs delayed various aspects of the program and
contributed to problems with meeting spending and home weatherization targets.

Several grantees from which we obtained information encountered other delays in preparing their
Weatherization Program plans. The Department required all grantees to submit plans for
implementing the Weatherization Program by May 2009. The state plans were to outline the use
of Recovery Act funds and detail performance metrics for weatherizing homes. Upon approval
of the plans by the Department, grantees were eligible to receive 40 percent of their
Weatherization Program allocation. The statewide Weatherization Assistance Program in North
Carolina, for instance, encountered difficulties in finalizing its plan when the administration of
the program was transferred to the State's Department of Commerce in August. Although North
Carolina's original state plan had been approved by the Department in June 2009, the State had to
submit an amended plan, including budget information, through its Department of Commerce.
The amended state plan was ultimately not approved by the Department of Energy until
November 2009. Accordingly, North Carolina did not have access to its allocation for the
Weatherization Program until that time. In another instance, the State of Wisconsin did not have
                                                  3
an approved plan in place until September 2009. Subsequently, the State amended the plan with
the new wage determinations. Until it had incorporated the new wage determinations issued in
December 2009 into its plan, Wisconsin chose not to proceed with amendments to sub-recipient
contracts, thus delaying weatherization production.

Certain states also faced fiscal challenges that contributed to the delay in the implementation of
the Weatherization Program. For example, because of budget shortfalls associated with the
economic downturn, certain states were under hiring freezes that applied to all employees
regardless of the source of their funding, including those tasked with weatherization-related
work. In other states, progress was impacted because personnel involved with the program were
subject to significant state-wide furloughs. Further, the approval of state budgets was delayed in
states such as Pennsylvania as legislators deliberated over how to address overall budget
shortfalls. Lacking staff, states were unable to perform required implementation tasks necessary
to handle the large infusion of Recovery Act Weatherization Program funding. Without budgets,
states did not have spending authority and, hence, were not able to obligate or expend any
Weatherization Program funds.

Officials in California, one of the largest recipients of weatherization funds, reported that
furloughs created significant staffing challenges in implementing the Weatherization Program.
Similarly, officials in Illinois indicated that their plan to hire staff necessary to implement their
weatherization plans had been delayed because of a hiring freeze in the State. Illinois projected
an additional need for 21 staff members to meet its Recovery Act goals. As we noted in our
Management Alert on the Department's Monitoring of the Weatherization Assistance Program in
the State of Illinois (OAS-RA-10-02, December 2009), the lack of staff adversely impacted its
ability to implement its Weatherization Program plan. The hiring freeze in Illinois was lifted in
November 2009 and a sustained hiring effort was underway. A hiring freeze in New York City
also slowed the implementation of weatherization work in that jurisdiction.

                                              Training

To ensure successful implementation of the Recovery Act requirements for the Weatherization
Program, the Department required that program personnel at the state and community action
agency level receive additional training. The training was required to ensure that recipients were
familiar with requirements associated with the Davis-Bacon Act, new eligibility requirements for
homes to be weatherized, increased allowable costs per unit, and monitoring of work performed
by sub-recipients. As with other activities, necessary state training initiatives were delayed by
budget shortfalls and staff furloughs. As a result, additional time was needed to develop
effective training programs and to deliver the training to impacted personnel.

PATH FORWARD

During consideration of the Recovery Act and following its enactment, the conventional wisdom
was that the Department's Weatherization Program was about as close to meeting the definition
of "shovel ready" as virtually any program in the Department's portfolio. Specifically, the
Recovery Act weatherization effort had the following attributes:

       An existing programmatic infrastructure, including processes and procedures which had
       been in place for many years;



                                                  4
       The techniques for weatherization tasks were well known and comparatively
       uncomplicated, and the requisite skills were widely available;

       Performance metrics were relatively easy to establish and understand;

       The potential benefits for low income citizens were easily recognized; and,

       The potential beneficial impact on energy conservation was obvious.

Under these circumstances, it seemed that the $5 billion in Recovery Act funds allocated to this
program would have had a prompt and easily discernable impact on job creation and economic
stimulation. These goals have proven to be much more difficult to achieve than originally
envisioned.

The results of our review confirmed that as straight forward as the program may have seemed,
and despite the best efforts of the Department, any program with so many moving parts was
extraordinarily difficult to synchronize. In this case, program execution depended on the ability
of the Federal government, (multiple agencies, in fact) state government, grant sub-recipients and
weatherization contractors, working within the existing Federal and state regulatory guidelines,
to respond to a rapid and overwhelming increase in funding. Further, anticipated stimulus impact
was affected by certain conditions and events clearly outside of Departmental control including
state budget difficulties; availability of trained and experienced program staff; and, meaningful
changes in regulatory requirements.

As these issues are resolved, it appears likely that pressure will increase to accelerate the
weatherization of residences in the compressed statutory timeframe available under the Recovery
Act. In a situation like this, our concern is that the understandable desire to spend the
Weatherization funds on a catch-up basis may lead to an environment conducive to wasteful,
inefficient and, perhaps even abusive practices.

To its credit, the Department recognized the need to ensure adequate monitoring of the
Weatherization Program, and is in the process of hiring staff for this purpose. However, given
the increased risk associated with accelerating expenditures, we recommend that the Department
re-evaluate its monitoring and staffing plans and adjust them as necessary to prevent, detect, and
remedy instances of fraud, waste and abuse of Recovery Act funds.

MANAGEMENT COMMENTS

Management provided comments which expanded upon the findings presented in this report.
The Department responded that it continues to ramp up to achieve the full impact of this
important program. Management expressed its resolve to work diligently to achieve robust
spending while maintaining proper programmatic oversight. Management also told us that
Departmental officials have worked closely with states in incorporating new Weatherization
Assistance Program Recovery Act requirements, such as the Davis-Bacon Act prevailing wage
provisions. The Department also asserted that it is taking proactive steps to accelerate the
program schedule, such as issuing 12 program guidance documents to provide grantees with
clarification on important topics, including the implementation of the Davis-Bacon Act and
monitoring requirements.


                                                5
We considered management's comments to be integral to any consideration of the current status
of the Department's Weatherization efforts. For that reason, other than technical issues which we
considered in the report process, management's comments are provided in their entirety at
Appendix III of this report.

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Assistant Secretary for Energy Efficiency and Renewable Energy, EE-1
    Director, Office of Risk Management, CF-1.2
    Team Leader, Office of Risk Management, CF-1.2
    Audit Liaison, EE-3A




                                               6
                                                                                                     Appendix I


         Distribution of Weatherization Recovery Act Funds to States and Territories


    Recipient Draw
     Downs as of
   February 16, 2010                                                      Total Award
   $368.2 Million, 8%                                                     Draw Downs as of
                                                                          February 16, 2010




                                                     Total Award
                                                     $4.73 Billion,
                                                         92%




Source: Source: Department's National Weatherization ARRA Snapshot Report dated February 16, 2010.
                                                                                                              Appendix II
                            Total Units Weatherized Compared to Total Units Planned
                                            As of February 16, 2010
                                                           Total                                            Percent of
                                                                                    Total Units
                  Recipients                             Completed                                            Units
                                                                                     Planned
                                                           Units                                            Completed
Alabama                                                        477                       6,651                    7.17%
Alaska                                                           0                       1,523                    0.00%
Arizona                                                        359                       6,409                    5.60%
Arkansas                                                       625                       5,578                    11.2%
California                                                      12                      43,400                    0.03%
Colorado                                                      1,369                     10,478                   13.07%
Connecticut                                                     23                       7,500                    0.31%
Delaware                                                       519                       1,526                   34.01%
District of Columbia                                             0                        785                     0.00%
Florida                                                        312                      19,090                    1.63%
Georgia                                                        632                      13,871                    4.56%
Hawaii                                                           0                        672                     0.00%
Idaho                                                          551                       3,113                   17.70%
Illinois                                                       331                      26,933                    1.23%
Indiana                                                        974                      19,736                    4.94%
Iowa                                                           370                       7,196                    5.14%
Kansas                                                         267                       5,820                    4.59%
Kentucky                                                       431                       9,076                    4.75%
Louisiana                                                      104                       5,136                    2.02%
Maine                                                          560                       4,427                   12.65%
Maryland                                                       279                       6,850                    4.07%
Massachusetts                                                 1,310                     16,926                    7.74%
Michigan                                                       385                      33,410                    1.15%
Minnesota                                                     1,423                     16,858                    8.44%
Mississippi                                                   1,472                      5,468                   26.92%
Missouri                                                      1,089                     21,506                    5.06%
Montana                                                        244                       2,477                    9.85%
Nebraska                                                       190                       4,000                      4.75
Nevada                                                          84                       5,539                    1.52%
New Hampshire                                                  349                       2,609                   13.38%
New Jersey                                                      53                      13,054                    0.41%
New Mexico                                                     155                       2,788                    5.56%
New York                                                       280                      45,400                    0.62%
North Carolina                                                 197                      22,203                    0.89%
North Dakota                                                   402                       3,267                   12.30%
Ohio                                                          6,814                     32,180                   21.17%
Oklahoma                                                       520                       7,060                    7.37%
Oregon                                                         191                       4,635                    4.12%
Pennsylvania                                                   378                      29,554                    1.28%
Rhode Island                                                     0                       2,532                    0.00%
South Carolina                                                 286                       6,500                    4.40%
South Dakota                                                    53                       2,327                    2.28%
Tennessee                                                     1,430                     10,524                   13.59%
Texas                                                            0                      33,908                    0.00%
Utah                                                           720                       4,474                   16.09%
Vermont                                                        280                       1,612                   17.37%
Virginia                                                      1,358                      9,193                   14.77%
Washington                                                    1,007                      7,170                   14.04%
West Virginia                                                  660                       3,574                   18.47%
Wisconsin                                                      772                      20,678                    3.73%
Wyoming                                                          0                        928                     0.00%
Territories (5) , Native American Tribes (2)                     0                       7,891                    0.00%
Total (58)                                                   30,297                    586,015                    5.17%

       Source: Source: Department's National Weatherization ARRA Snapshot Report dated February 16, 2010.
                                                February 16, 2010


 MEMORANDUM FOR:                        GREGORY H. FRIEDMAN
                                        INSPECTOR GENERAL

 FROM:                                  KATHLEEN B. HOGAN (508 VERSION, NO SIGNATURE)
                                        DEPUTY ASSISTANT SECRETARY
                                         FOR ENERGY EFFICIENY
                                        OFFICE OF TECHNOLOGY DEVELOPMENT
                                        ENERGY EFFICIENCY AND RENEWABLE ENERGY

 SUBJECT:                              Comments on the DRAFT Special Report on “Progress in
                                       Implementing the Department of Energy’s Weatherization Assistance
                                       Program under the American Recovery and Reinvestment Act”

 The Department’s Office of Weatherization and Intergovernmental Program (OWIP) welcomes the
 opportunity to review and comment on the DRAFT special report on “Progress in Implementing the
 Department of Energy’s Weatherization Assistance Program (WAP) under the American Recovery
 and Reinvestment Act (ARRA).”

 The Department continues to ramp up to achieve the full impact of this important program. The
 graphs below show the nearly exponential increase in funds spent for the national program and the
 number of units weatherized for selected states.


           Cummulative Expenditures by Month ($M)                                       Weatherization Production CY 2009: Selected States
                                                                                                             (ARRA)

$600
                                                                                    1,200

$500
                                                                                    1,000
$400
                                                                Homes Weatherized




                                                                                     800
                                                                                                                                             DE
$300                                                                                                                                         ID
                                                                                     600                                                     VA
$200                                                                                                                                         UT

                                                                                     400
$100
                                                                                     200
  $0
       Mar- Apr- May- Jun- Jul- Aug- Sep- Oct- Nov- Dec- Jan-                          0
        09 09 09 09 09 09 09 09 09 09 10                                                         Q2              Q3              Q4
The Department’s OWIP has worked diligently to achieve robust spending while maintaining proper
programmatic oversight. We have worked closely with States in incorporating WAP Recovery Act
requirements not previously required (e.g., Davis-Bacon Act prevailing wage provisions). After
prevailing wage rates were established by the U.S. Department of Labor in September 2009, States
then needed to incorporate these rates into their contracts with local agencies that perform the
weatherization work. For WAP, some States had as many as 30 contracts that needed modification to
incorporate revised wage rates, the requirement for weekly pay, and other changes. With States
facing severe budget shortfalls, and furloughs in some cases, it was challenging for them to provide
the support services (e.g., human resource departments, legal) needed to put funding mechanisms in
place for Recovery Act Programs and then to spend quickly.

States stepped up and weatherized 36,872 homes in the fourth quarter of calendar year 2009
compared to 21,638 homes in the same quarter in 2008. The change from 2008 to 2009 represents a
70% increase in unit production. The increase in unit production tells only part of the story of
improvement, given that the maximum allowable expenditure per home more than doubled from
$3,200/home to $6,500/home. With the increased expenditure level, the national weatherization
network performed more weatherization services on the average home in 2009, while also reaching
significantly more homes than in previous years.

The Department continues to take proactive steps to accelerate the program schedule. For instance,
we have developed a national agreement on Historic Preservation. The standardized template,
developed for all States to use, will streamline processes for States in dealing with Historic
Preservation Offices. We have also streamlined the eligibility of multi-family dwellings by adopting
an established Department of Housing and Urban Development procedure. Already for Program
Year 2010 (which began October 1, 2009), the Department’s OWIP has issued 12 program guidance
documents to provide grantees with clarification on important topics, including the implementation
of the Davis-Bacon Act, the protection of historic properties, monitoring requirements, grantee
performance needed before drawing down the remaining 50% of their Recovery Act WAP funding,
and maintaining the privacy of recipients of services.

The Department continues to put measures in place to accelerate the program while mitigating
wasteful spending risks associated with faster spending pressure. The Department’s OWIP has
implemented a new and improved accounts management and customer service focus, hired dozens of
Project Officers (POs) to oversee State performance, and revamped its monitoring processes. The
POs have formalized weekly check-ins with their grantees to enable DOE to identify and quickly
respond to issues as they arise, and the POs will visit thousands of completed homes to review work
products and assess local quality control efforts. Furthermore, performance-based milestones are in
place. For example, States must weatherize a minimum of 30% of their total units before drawing
down the remaining 50% of their Recovery Act WAP funding.

To support grantees, the Department’s leadership has been actively involved in identifying and
addressing challenges facing States. An outreach initiative entitled “Operation Green Light,”
dispatched senior leadership to visit and assess nine of the highest risk states. In addition, Assistant
Secretary Cathy Zoi made telephone calls to fifty-one state energy offices—calls that in many cases
included participation from state governors—to identify barriers and provide guidance to ensure that
money would be spent well and quickly. Since November 19, 2009, the Department’s OWIP
leadership has also held weekly calls with the National Association for State Community Services
Programs (NASCSP) and the National Community Action Foundation (NCAF) to further assist
                                                                                                           2
grantees and the weatherization assistance network in identifying and resolving issues that hinder
effective and quick program spending.

In summary, the Department is confident that the weatherization efforts under the Recovery Act
continue to ramp up and will achieve the economic impact envisioned while creating clean energy
jobs across the nation. There is more specific feedback in the Attachment. Thank you again for the
opportunity to comment.




                                                                                                     3
                                                                    IG Report No. OAS-RA-10-04

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162 or Felicia.Jones@hq.doe.gov.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
